U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 17, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Michael Baker v. United States of America,
S.Ct. No. 19-667

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
21, 2019, and placed on the docket on November 26, 2019. The government's response is due
on December 26, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 27, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0667
BAKER, MICHAEL
USA

DENNIS P. RIORDAN
RIORDAN & HORGAN
1611 TELEGRAPH AVE.
SUITE 806
OAKLAND, CA 94612
415-431-3475
DENNI S @RIORDAN-HORGAN. COM
ALEXANDRA A.E. SHAPIRO
SHAPIRO ARATO BACH
500 FIFTH AVE.
40TH FLOOR
NEW YORK, NY 10110
212-257-4880

